Case 9:16-cv-80542-RLR Document 28 Entered on FLSD Docket 08/21/2017 Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 9:16-CV-80542-ROSENBERG/WHITE
ANTON E. TUOMI,
Petitioner,
v.
JULIE JONES, et al.,
Respondents.
/
ORDER ADOPTING MAGISTRATE’S REPORT AND RECOMMENDATION
This matter is before the Court upon pro se Petitioner’s petition for writ of habeas corpus,
DE 1, which was previously referred to the Honorable Patrick A. White for a Report and
Recommendations on any dispositive matters, DE 3. On April 12, 2017, Judge White issued a
Report and Recommendations recommending that the federal habeas petition be denied, that a
certificate of appealability be denied and, finally, that the case be closed. DE 19.
The Court entered an Order Adopting Magistrate’s Report and Recommendations
following a de novo review of the Report and Recommendations and the record. DE 20.
However, on May 1, 2017, the Court received a Motion for Extension of Time to File Objections
to Report of Magistrate Judge. DE 22. A stamp on that filing showed it was delivered to prison
officials for mailing within the objections period. Id. Accordingly, the Court entered an Order
Granting Petitioner’s Motion for Extension of Time, giving Petitioner until July 3, 2017 to file
objections, DE 23. On July 10, 2017, the Court received Petitioner’s objections. A stamp on that
filing revealed it had been delivered to prison officials for mailing on July 3, 2017. DE 24.

Case 9:16-cv-80542-RLR Document 28 Entered on FLSD Docket 08/21/2017 Page 2 of 2

So that there would be no ambiguity regarding Petitioner’s opportunity to appeal, the
Court has entered a Paperless Order Vacating the Order Adopting Magistrate’s Report and
Recommendation. DE 27. The Court has now conducted a de novo review of the Report and
Recommendations, the Petitioner’s objections, and the record. Upon review, the Court still finds
Judge White’s recommendations to be well reasoned and correct. The Court agrees with the
analysis in Judge White’s Report and Recommendations that that the federal habeas petition
should be denied, that a certificate of appealability should be denied and, finally, that the case
should be closed. DE 19.
For the foregoing reasons, it is ORDERED AND ADJUDGED that Magistrate Judge
White’s Report and Recommendations is ADOPTED. Accordingly, the federal habeas petition
is DENIED and a certificate of appealability is also DENIED. The case shall remain CLOSED.
DONE and ORDERED in Chambers, Fort Pierce, Florida, this 18th day of August,
2017.

_______________________________
ROBIN L. ROSENBERG
UNITED STATES DISTRICT JUDGE
Copies furnished to Counsel of Record

2

